Institute for Justice AFP v. Becerra Service List
Attorneys for Petitioner
John J. Bursch
Counsel of Record
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
Thomas More Center
Derek L. Shaffer
Counsel of Record
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW
Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Americans for Prosperity Foundation
Attorney for Respondent
Aimee Athena Feinberg
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Xavier Becerra, in his official capacity as the Attorney General of California

